QUALITY CONTROL REVIEW OF THE
REPORT ON CONTROLS OVER THE
 ENTERPRISE SERVICES CENTER
      Department of Transportation

      Report Number: QC-2008-079
     Date Issued: September 22, 2008
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the Report          Date:    September 22, 2008
           on Controls Over the Enterprise Services Center
           Report No. QC-2008-079

  From:    Rebecca C. Leng                                    Reply to
                                                              Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           This report summarizes the results of the review of general, application, and
           operational controls over the Department of Transportation’s (DOT) Enterprise
           Services Center (ESC). The ESC performs services including accounting;
           financial management; systems and implementation; media solutions;
           telecommunications; and data center services for DOT and other Federal
           organizations. It is staffed by Federal Aviation Administration (FAA) employees
           at the Mike Monroney Aeronautical Center in Oklahoma City, under the direction
           of the Department’s Chief Financial Officer (CFO).

           ESC is one of four Federal Service Providers designated by the Office of
           Management and Budget (OMB) to provide financial management systems and
           services to other governmental agencies. In addition to serving DOT, ESC
           supports the National Endowment for the Arts, the Institute of Museum and
           Library Services, the Commodity Futures Trading Commission, and the
           Government Accountability Office. OMB requires Federal Service Providers to
           obtain an independent audit in accordance with the American Institute of Certified
           Public Accountants’ (AICPA) Statement on Auditing Standards.

           This year’s audit of the DOT ESC was expanded to cover not only the Delphi
           Financial Management System but also the Consolidated Automation System for
           Time and Labor Entry (CASTLE). CASTLE is used to support DOT operations
           only. The audit was completed by Clifton Gunderson, LLP, of Calverton,
           Maryland, under contract to the Office of Inspector General (OIG). We performed
           a quality control review of the audit work to ensure that it complied with
           applicable standards. These standards include Generally Accepted Government
                                                                                                                    2


Auditing Standards and AICPA’s Statement on Auditing Standards-70. In our
opinion, Clifton Gunderson’s audit work complied with applicable standards.

The Clifton Gunderson audit report concluded that management’s description of
controls for the ESC presents fairly, in all material respects, the controls that had
been placed in operation as of June 30, 2008. In addition, the independent auditor
concluded that controls, as described, are suitably designed for all stated control
objectives except in the areas of logical access and segregation of duties
concerning CASTLE system operations. 1 Specifically, the CASTLE Database
Administrators had access to develop, test, and release system changes into
production without any independent review and approval.

Gunderson also reported that the controls that were tested were operating with
sufficient effectiveness to provide reasonable, but not absolute, assurance that the
control objectives specified by management were achieved during the period from
October 1, 2007, through June 30, 2008.

Gunderson made 19 recommendations to DOT management for improving
controls in various areas, including access, accounting operations, service
continuity, segregation of duties, security planning, and management. We agree
that implementing these recommendations will further enhance controls over
operations of the ESC and have included these recommendations in the Exhibit to
this report. In a September 17, 2008, response to OIG, the Acting Deputy Chief
Financial Officer concurred with the recommendations and committed to
implementing corrective actions (see Appendix).

In accordance with DOT Order 8000.1C, the corrective actions taken in response
to Gunderson’s recommendations are subject to audit follow-up. Gunderson is
performing additional testing and will prepare a follow-up management letter to
OIG by September 30, 2008, reporting whether the control environment changed
significantly between July 1, 2008, and September 30, 2008. After receiving
Gunderson’s follow-up letter, we will decide whether additional information is
needed for any planned corrective actions, including target completion dates.




1
    The independent auditor’s report is available upon request to current and prospective ESC user organizations.
                                                                              3


We appreciate the courtesies and cooperation of FAA, ESC, the Office of the
Secretary of Transportation, and Clifton Gunderson representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1407 or Nathan Custer, Program Director, at (202) 366-5540.

Attachments

                                       #


cc: Chief Information Officer, DOT
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Information Services/CIO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                   4


EXHIBIT. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR
The following recommendations were made by Clifton Gunderson, LLP, in its
2008 independent auditor’s report on the review of general, application, and
operational controls over the DOT ESC. OIG agrees that DOT management
should implement the following actions to enhance ESC controls.

                               Access Controls
     Management should ensure that proper mechanisms are in place ensuring
 1
     timely and proper revocation of all access for terminated employees.
     Management should perform testing of database updates and either apply
     the patches or document the issues with the patches that prevent
 2   operational deployment. In the event that an update cannot be deployed,
     management should document compensating controls to reduce the
     likelihood of an individual vulnerability being exploited.
     Management should audit powerful system and database administrator
     accounts on the database platforms for certain commands. This will
 3
     provide management with an audit trail of actions taken by powerful
     authorized accounts.
     Management should periodically perform wireless scans for rogue access
 4   points and remove all unauthorized devices from the Mike Monroney
     Aeronautical Center internal network.
     Management should continue with its migration plans for the Delphi
 5
     systems.
     Management should set the failed login attempts setting as required by
     DOT policy, and set the password lock setting to unlimited to suspend the
 6
     account, requiring the Helpdesk to unlock or reset the password to the
     account.
     Management should ensure that no Delphi acquisitions and procurement
 7   software client uses generic user accounts, in order to enforce proper user
     accountability.
                            Accounting Operations
     Management should ensure all agencies adhere to standard procedures for
 8
     project/agreement close-out.




Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                   5




                            Service Continuity
    Management should review and revise its Continuity of Operations Plan
    to meet the standards identified in NIST SP 800-34. The plan should also
  9
    be updated at least on an annual basis to reflect the ESC’s current
    environment.
    Management should develop and formalize maintenance agreements
 10 between its Media Solutions Division and all of its vendors to ensure that
    operations downtime is minimized.
    Management should ensure the Enterprise Support Systems system
 11
    Disaster Recovery plan is finalized and approved.
                           Segregation of Duties
    Management should ensure that programmers’ and database
    administrators’ access to production and development is segregated, and
 12
    ensure that changes are tested in development and released into
    production by different individuals.
                              Security Planning
      Management should, in collaboration with the various contracting officer
      technical representatives, perform a review of all contractors who have
      separated and ensure that their access to system resources has been
 13   revoked and their key cards/badges deactivated. Management should
      ensure that proper measures are taken to ensure that the separation
      process is followed closely for every separating employee/contractor and
      that all exit out-processing forms are properly filled out and maintained.
      Management should ensure that signed Rules of Behavior (RoB) forms
      are obtained for every system user (if not already on file) and improve
      procedures to ensure that RoB forms are signed prior to granting users
 14   system access. Alternatively, management should implement automated
      RoB on each ESC information system so that the user has to read,
      acknowledge, and agree to follow the rules of behavior before access to
      an information system is authorized.
      Management, through the Information Systems Security Division, should
      perform monthly password cracking/auditing checks to ensure that ESC
 15
      systems have password filters permanently set to enforce password
      complexity (alphanumeric and special characters).
      Management should ensure that the Certification Agent/s in the security
      certification and accreditation process of the System Management
 16   Facility general support system is an individual, group, or organization
      that retain/s an appropriate level of independence and remain/s free from
      conflicts of interest.


Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                             6


    Management should ensure memorandums of understanding (MOU) are
 17 updated prior to expiration and contain the authorizing signatures for
    implementation.
                              Management
    ESC management should ensure that the management assertions
 18 accurately reflect the current environment and that said controls are
    implemented and operating as designed.
    ESC management should ensure that the responsibility for the
 19 reconciliation of outbound data is clearly delineated within the
    memorandum of understanding (MOU) with ESC clients.




Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                           7


APPENDIX. MANAGEMENT COMMENTS


                              September 17, 2008

MEMORANDUM TO:                Rebecca C. Leng
                              Assistant Inspector General
                              for Financial and Information Technology Audits

FROM:                         Lana Hurdle
                              Acting Deputy Chief Financial Officer

SUBJECT:                      Management Response to the Statement on Auditing
                              Standards (SAS) 70 Audit of the Enterprise Services Center
                              (ESC’s) Services Information Security Controls


Thank you for the SAS 70 audit of Oklahoma City’s ESC’s Information Security Controls.
We appreciate the Office of Inspector General's (OIG) coordination and Quality Control
Review of Clifton Gunderson's SAS-70 audit.

We concur with Clifton Gunderson’s recommendations and have identified corrective
actions to address them (see attachment). Consistent with past practices, we have worked
with the auditors throughout this year’s SAS-70 audit to ensure that as issues are
documented corrective actions are also identified and scheduled to mitigate risks and to
strengthen ESC’s controls. Corrective actions already taken to enhance ESC’s security in
response to this year’s SAS-70 audit include:

Access Controls:

   Implemented a procedure which ensures that all Delphi User-IDs assigned to
    terminated personnel are turned off at the appropriate end-date.
   Established and performed processes for monthly and quarterly wireless scans.
   Continued migration activities for Delphi isolation. Host-based firewalls have been
    implemented on test systems.
   Set Failed Login Attempts and Password Lock settings according to Department of
    Transportation (DOT) policy.
   Disabled Generic User IDs (created unique IDs as needed).

Accounting Operations:

   Requested the Office of Budget-Reimbursable Oversight Division, ABU-500, to
    include a standard close-out form in their Federal Aviation Administration (FAA)
    Financial Manual. When FAA projects are closed, the Office of Operational Services
    (AMZ) will utilize the standard form.




Appendix. Management Comments
                                                                                          8


Segregation of Duties:

   Transferred the Consolidated Automated System for Time and Labor Entry (CASTLE)
    production responsibilities to the Office of Information Technology (AMI) personnel
    thereby ensuring segregation of duties from CASTLE development personnel in the
    Office of Application Services (AME).

Security Planning:

   Obtained Risk Acceptance to allow a single person to perform as the Information
    System Security Certifier (ISSC) and the System Owner (SO) for the Systems
    Management Facility (SMF). Updated Management Assertions accordingly.
   Revised Memorandum of Understanding (MOU) Procedure which now requires AME
    to request customer approval of MOUs (3 customer approvals obtained to date).

Management:

•   Updated Management Assertions to reflect ESC’s current environment (e.g., system
    operations, organization structure, process workflows, and physical environment).
•   Updated the AME MOU template to clearly delineate reconciliation of outbound data
    responsibility.

The following additional corrective actions are currently underway:

Access Controls:

   Developing process to document management approval and compensating controls, if
    current ORACLE Critical Patch Updates are not implemented in the next available
    release schedule.
   Performing feasibility studies for automated audits of system commands.

Service Continuity:

   Developing the AMI and Media Solutions Division Continuity of Operations Plans
    (COOP).
   Coordinating new equipment maintenance contracts after manufacturer’s warranty
    expires.
   Updating the Enterprise Support Systems Disaster Recovery Plan.

Security Planning:

   Consolidating contractor exit procedures to ensure separated contractor access to ESC-
    managed resources are terminated.
   Documenting Rules of Behavior (RoB) implementations (automated or paper) and
    obtaining/storing paper copies per Official Files List (OFL) requirements.

We appreciate the assistance you and your staff have provided throughout the SAS-70
process. We are pleased that we continue to strengthen the design and implementation of




Appendix. Management Comments
                                                                                          9


all controls for ESC’s shared service offerings every year, and we look forward to your
continued help and support.

As a Federal Shared Service Provider (FSSP) designated by the Office of Management
and Budget (OMB) to provide a state-of-the-art financial system and quality accounting
services to other Federal agencies, we are fully committed to ensuring that ESC’s Financial
Management Services meet or exceed all information security requirements.

Thank you for your continuing support and assistance in this effort.

Attachment




Appendix. Management Comments
                                                                                           10




                                                                          Attachment

                                Corrective Action Plan
                           For ESC’s FY 2008 SAS-70 Audit


NFR #01:

Recommendation 1: In collaboration with the various Contracting Officer’s Technical
Representative (COTRs), perform a review of all contractors who have separated and
ensure their access to system resources has been revoked and their key cards/badges
deactivated. Make sure proper measures are taken to ensure the separation process is
followed closely for every separating employee/contractor and all exit out-processing
forms are properly filled out and maintained.

       An updated clearance procedure will be implemented for ESC-managed systems
       that mandate out-processing forms for every separating employee/contractor are
       properly filled out and maintained. The procedure will include notification to the
       Systems Administrators so that the terminated personnel’s access can be revoked.
       Information Systems Security Officer (ISSOs) will coordinate with the COTRs to
       perform a review of all contractors separated from January 1, 2008, through date of
       procedure implementation. Remediation by December 31, 2008.

Recommendation 2: Ensure signed Rules of Behavior forms are obtained for every system
user (if not already on file) and improve procedures to ensure RoB are signed prior to
granting users system access. Alternatively, implement automated RoB on each Enterprise
Services Center (ESC) information system so that the user has to read, acknowledge, and
agree to follow the rules of behavior, before authorizing access to an information system.

       Rules of Behavior: The ESC will ensure either signed hard-copy or automated
       RoBs are obtained from every system user prior to granting users system access to
       ESC-managed systems. Automated RoBs will be implemented, where appropriate.
       For system users controlled by hard copy RoBs, updated signed RoBs will be
       obtained at frequencies specified within each system's respective Security Plan.
       Remediation by December 31, 2008.

NFR #03:

Recommendation 1: Review and revise their Continuity of Operations Plan to meet the
standards identified in the National Institute of Standards and Technologies (NIST) SP
800-34. The plan should also be updated at least on an annual basis to reflect the ESC’s
current environment.




Appendix. Management Comments
                                                                                          11



Management concurs with these recommendations. The Management Systems Division
(MSD) will develop a COOP specific to the media solutions work environment using the
components recommended by the NIST 800-34 Federal Guidelines. Development of the
MSD COOP and subsequent annual review/update will be completed by October 2008 and
October 2009, respectively through the Media Solutions Division, AMI-700, quality
assurance specialist coordination efforts. Remediation by October 15, 2008.

Recommendation 2: Develop and formalize maintenance agreements between Media
Solutions Division and all of its vendors to ensure operations downtime is minimized.

       Management concurs with this recommendation. The MSD management will
       coordinate the establishment of a new AVID equipment maintenance contract
       before expiration of the year-long manufacturer warranty on the new AVIDs.
       Remediation by March 1, 2009.

NFR #04:

Recommendation 1: We recommend that ESC management ensures the Certification
Agent(s) in the Security Certification and Accreditation process of the SMF general
support system be an individual, group, or organization that retain/s an appropriate level of
independence and remains free from conflicts of interest.

       Management concurs with this recommendation. A risk acceptance is documented
       and was signed by the Authorizing Official (AO) on February 22, 2008, for the
       ISSC and SO being the same person for the SMF. The Information System Security
       Division, AMI-500, will update the management assertions to reflect the
       independence of AMI-500 in relation to the auditing of systems within DOT, FAA,
       and other government agencies. Remediation by October 31, 2008.

NFR #05:

Recommendation 1: We recommend ESC management should ensure proper mechanisms
are in place to ensure timely and proper revocation of all access for terminated employees.

       Management concurs with this recommendation. ESC Management agrees that
       proper mechanisms must be in place to ensure terminated employee’s access to the
       Delphi system is deactivated in a timely manner. If a terminated employee has
       multiple user accounts, the Automatic User Termination Program is currently only
       deactivating the first user account it finds, but is not deactivating any subsequent
       accounts that individual might have. To correct this, Kintana #244118 was
       submitted on June 6, 2008, requesting the program be modified to ensure all user
       accounts assigned to an employee are appropriately deactivated by the Automatic
       User Termination program. This System Change Request (SCR) is currently
       scheduled to be implemented in the December 7, 2008 Delphi release. In the
       interim, the ISSO staff has created the Automatic User Termination Verification
       Procedure in the ISSO Desk Guide. This procedure was implemented on


Appendix. Management Comments
                                                                                           12


       June 16, 2008, and it is to be run by the ISSO staff for all individuals identified on
       the Automatic User Termination Report, each time the program runs. The addition
       of this procedure ensures that any and all Delphi User-IDs assigned to those
       individuals identified on the Automatic User Termination Report have been
       appropriate end-dated. The ISSO staff has begun attaching their verification to the
       Automatic User Termination Report, per the new Automatic User Termination
       Verification Procedure guidelines. Remediation by December 31, 2008.

NFR #06:

Recommendation 1: Management should perform testing of Oracle Critical Patch Updates
(CPUs) and either apply the patches or document the issues with the patches that prevents
operational deployment. In the event that a CPU cannot be deployed, management should
document compensating controls to reduce the likelihood of an individual vulnerability
being exploited.

       AME management agrees with the recommendation to perform testing of Oracle
       CPUs and either apply the patches or document the issues with the patches that
       prevent operational deployment. ESC will implement a process to obtain
       appropriate documentation, including management approval, supporting the reason
       for any delays in the deployment of CPUs, in the event implementation of current
       CPU patches cannot be integrated into the next release schedule. Remediation by
       December 31, 2008.

Recommendation 2: Management should audit powerful system and database
administrator accounts on the Oracle database platforms for the CREATE, ALTER, and
DROP commands. This will provide management with an audit trail of actions taken by
powerful authorized accounts.

     AME will perform extensive testing and evaluation to examine potential operational
     impacts on the performance of the database servers. We are further researching the
     implications. Remediation by March 31, 2009.

Recommendation 3: Management should centrally maintain documentation of risk
acceptances and false positives resulting from vulnerability and penetration testing.

       Since this SAS-70 crossed different systems that have different Information
       Systems Security Officer (ISSOs), the AOs, and system owners, centralizing the
       false positives and risk acceptances will require a database to track. AMI-500 will
       pursue the development of a database to track the risk acceptance and false positive
       repository for ESC. Remediation by December 31, 2008.

Recommendation 5: Periodically perform wireless scans for rogue access points and
remove all unauthorized devices from the Mike Monroney Aeronautical Center (MMAC)
internal Network.




Appendix. Management Comments
                                                                                        13


       AMI-500 will perform periodic testing on both a monthly and quarterly basis using
       different tools to search for rogue devices. The monthly scans will utilize the AMC
       ARC Foundstone wireless assessment discovery module (currently being tested)
       and the quarterly scans will consist of the NETStumbler wireless scanning tool.
       Remediation by October 1, 2008.

Recommendation 6: Management should continue with its migration plans for the Delphi
systems.

       The Delphi Authorizing Official has accepted any perceived risks associated with
       the Delphi security enclave (Delphi Enclave approval memo signed June 12, 2008).
       Implementation of the security enclave is associated with the Delphi Hardware
       upgrade. In addition to current mitigation strategies, host-based firewalls will be
       implemented by March 31, 2009,to provide additional security. (Note that Delphi
       systems are scheduled to be moved to their own IP space by September 30, 2009).
       Remediation by March 31, 2009.

NFR #07:

Recommendation 1: Ensure all agencies adhere to standard procedures for project /
agreement close-out.

       The General Accounting Division, AMZ-300, will work with Office of Budget-
       Reimbursable Oversight Division, ABU-500, to have a standard close out form
       included in the Reimbursable Agreements Chapter of the FAA Financial Manual
       and the rest of the department will follow work instruction AMZWI-30002 which
       requires an official close-out memo for each reimbursable agreement. Remediation
       by October 01, 2008.

NFR #08:

Recommendation 1: We recommend that ESC ensures Management Assertions accurately
reflect the current environment and that said controls are implemented and operating as
designed.

     The Printing and Graphic Team, AMI-900, will update its Management Assertions to
     reflect the current operating environment. The AMI-900 will also develop an
     Organizational Chart, augmented by an Excel spreadsheet that contains all theAMI-
     900 employees with their Roles and Responsibilities identified. We will utilize and
     provide a system generated list of the AMI-900 Federal employees. Remediation by
     October 30, 2008.

     The Office of Information Technology (AME) Management agrees that the AME
     section of the Management Assertions will be updated to accurately reflect the current
     AME environment prior to the next SAS-70 audit. Remediation by October 30, 2008.




Appendix. Management Comments
                                                                                           14


Recommendation 2: We recommend that ESC ensures the ESS DR plan is finalized and
approved.

       The ESS DR test plan will be sent to the Authorizing Official for final approval
       once final updates have been applied. Remediation by October 30, 2008.

Recommendation 3: We recommend that ESC ensures the responsibility for the
reconciliation of outbound data is clearly delineated within the Memorandum of
Understanding (MOU) with ESC clients.

       The AME MOU template will be updated to clearly delineate the responsibility for
       the reconciliation of outbound data. Remediation is complete.

NFR #09:

Recommendation 1a: Set the Failed Login Attempts setting to 3 invalid attempts to adhere
to DOT policy.
       The Failed Login Attempts setting will be set to 3 invalid attempts, to adhere to
       DOT Policy. Remediation by September 30, 2008.

Recommendation 1b: Set the Password Lock setting to unlimited to suspend the account,
requiring the Helpdesk to unlock or reset the password to the account.
       The Password Lock setting will be set to unlimited to suspend the account,
       requiring the Helpdesk to unlock or reset the password to the account. Remediation
       by September 30, 2008.

Recommendation 2a: Programmers’ and DBAs’ access to production and development
should be segregated.

Recommendation 2b: Ensure changes should be tested in development and released into
production by different individuals.

       The CASTLE lead will work with AME management to ensure resources are
       available to allow for appropriate segregation of duties between CASTLE
       Programmers and DBAs, to ensure the CASTLE Production Control process for
       DBA Production Support is consistently followed. Remediation by September 30,
       2008.

NFR #10:

Recommendation 1: Ensure MOUs are updated prior to expiration and contain the
authorizing signatures for implementation.

       Management concurs with this recommendation. The ESC MOU creation/update
       procedure will be revamped to ensure MOUs are updated prior to expiration and
       contain appropriate authorizing signatures for implementation.


Appendix. Management Comments
                                                                                        15



      NOTE: Updated MOUs with final signatures have now been obtained on the
      following MOUs: GovTrip, Federal Personnel Payroll System (FPPS), General
      Services Administration (GSA) NEAR, and OIG and the Transportation Inspection
      General Reporting System (TIGR). Renewal activities are currently underway for
      the remaining 9 expired MOUs. Thirteen other MOUs have been renewed (with
      final signatures) within the past 12 months. Remediation by January 31, 2009.

NFR #11:

Recommendation 1: ESC management should ensure no ESC Prism client uses generic
user accounts. This would enforce proper user accountability.
      Management concurs with this recommendation. The ESC Prism generic account
      will be retired, and will be replaced with unique accounts that will enforce proper
      user accountability. Remediation is complete.




Appendix. Management Comments
